          FEDERAL HOUSING FINANCE AGENCY
            OFFICE OF INSPECTOR GENERAL



             CliftonLarsonAllen LLP’s Evaluation of
              the Federal Housing Finance Agency’s
              Information Security Program – 2012




Audit Report: AUD-2013-003                      November 30, 2012
FHFA issued the subject report on November 30, 2012. FHFA is required under section 3545 of
the Federal Information Security Management Act of 2002 (FISMA) to have an annual
independent evaluation of its information security program.


AUDIT OBJECTIVE: The objective of this performance audit was to evaluate FHFA’s
information security program and practices, including the Agency’s compliance with FISMA and
related information security policies, procedures, standards, and guidelines.


Because information in this report could be abused to circumvent FHFA’s internal controls, it
has not been released publicly.
